No. 20-1244

 

IN THE
Supreme Court of the Anited States

 

BARBARA TULLY ET AL.,
Petitioners,
v.
PAUL OKESON, S. ANTHONY LONG, SUZANNAH WILSON OVERHOLT, ZACHARY E. KLUTZ,

AND CONNIE LAWSON,
Respondents.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Petitioners
contains 4,200 words, excluding the parts of the document that are exempted by

Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2021.

 

Brianne ¥. Gorod
Counsel for Amicus Curiae
